No. 20In the

Supreme Court of the United States
BURGOYNE, LLC,
Petitioner,
v.
CHICAGO TERMINAL RAILROAD COMPANY, AN ILLINOIS
CORPORATION, AND IOWA PACIFIC HOLDINGS, LLC,
AN ILLINOIS LIMITED LIABILITY COMPANY,
Respondents,
THE CITY OF CHICAGO, A MUNICIPAL CORPORATION,
Intervenor.
On Petition for Writ of Certiorari to the Supreme Court of Illinois

PETITION FOR WRIT OF CERTIORARI

George S. Bellas
Counsel of Record
Jillian Tattersall
Misty J. Cygan
Bellas & Wachowski
15 North Northwest Highway
Park Ridge, Illinois 60068
(847) 823-9030
george@bellas-wachowski.com
Counsel for Petitioner

302649

A
(800) 274-3321 • (800) 359-6859

QUESTIONS PRESENTED
Petitioner owns a parcel of land in Chicago, Illinois. Chicago Terminal Railroad
formerly had the right to operate a portion of rail line subject to a conditional easement
over a portion of Petitioner’s property. The easement terminated according to its terms.
Nevertheless, Chicago Terminal Railroad entered into an agreement with the City of
Chicago to receive compensation for the terminated easement pursuant to The National
Trails System Act. There is an irreconcilable split between state courts regarding whether
the Surface Transportation Board can convert an expired easement by compensating the
railroad, which holds no valid title, for access to create a recreational trail, a purpose not
permitted by the easement’s terms.
The questions presented are:
1. Whether the National Trails System Act, 16 U.S.C. § 1241 et seq., precludes state
courts from resolving, for purposes of state property law, competing claims to property
rights.
2. Whether Congress intended to create a massive takings scheme when it enacted the
National Trails System Act.

i

CORPORATE DISCLOSURE STATEMENT
Petitioner Burgoyne, LLC, is an Illinois limited liability company with no parent company.
No publicly held corporation owns 10% or more of Burgoyne, LLC.
Chicago Terminal Railroad Company is an Illinois corporation. Chicago Terminal
Railroad’s parent company is Iowa Pacific Holdings, LLC, a limited liability holdings
company headquartered in Janesville, Wisconsin doing business as Permian Basin
Railways.
Intervenor City of Chicago is an Illinois municipal corporation organized under Article VII
of the Constitution of the State of Illinois.

ii

PARTIES TO THE PROCEEDING AND RELATED CASES
The parties to this proceeding are:
•

Petitioner Burgoyne, LLC, is an Illinois limited liability company with no parent
company. No publicly held corporation owns 10% or more of Burgoyne, LLC.

•

Chicago Terminal Railroad Company is an Illinois corporation. Chicago Terminal
Railroad’s parent company is Iowa Pacific Holdings, LLC, a limited liability holdings
company headquartered in Janesville, Wisconsin doing business as Permian
Basin Railways.

•

Intervenor City of Chicago is an Illinois municipal corporation organized under
Article VII of the Constitution of the State of Illinois.

Related cases to this proceeding are:
•

Alloy Property Company, LLC – Adverse Abandonment – Chicago Terminal
Railroad in Chicago, IL, Surface Transportation Board, Docket No. AB 1258,
Decision and Certificate of Interim Trail Use or Abandonment Issued April 30,
2018.

•

Burgoyne, LLC v. Chicago Terminal Railroad Company, Iowa Pacific Holdings, and
the City of Chicago, Circuit Court of Cook County, Illinois, County Department, Law
Division, No. 17-CH-6199, Dismissal Order issued December 18, 2018.

•

Burgoyne, LLC v. Chicago Terminal Railroad Company, Iowa Pacific Holdings, and
the City of Chicago, 2020 IL App (1st) 190098, Appellate Court of Illinois, First
District. Judgment of the Illinois Circuit Court affirmed June 25, 2020.

iii

•

Burgoyne, LLC v. Chicago Terminal Railroad Company, Iowa Pacific Holdings, and
the City of Chicago, No. 126224, Supreme Court of Illinois, Leave to Appeal denied
on September 30, 2020.

iv

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ............................................................................................. i
CORPORATE DISCLOSURE STATEMENT .................................................................... ii
PARTIES TO THE PROCEEDING AND RELATED CASES ........................................... iii
TABLE OF CONTENTS .................................................................................................. v
TABLE OF CITED AUTHORITIES .................................................................................. vi
OPINIONS BELOW ......................................................................................................... 1
JURISDICTION ............................................................................................................... 1
RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS ............................... 1
INTRODUCTION ............................................................................................................. 2
STATEMENT OF THE CASE .......................................................................................... 3
REASONS FOR GRANTING THE WRIT ........................................................................ 7
I.

II.

The Decision of the Illinois Courts Directly Conflicts with the
Decision of the Alabama Courts ................................................................ 7
A.

The reasoning and conclusions of the Illinois courts and
Alabama courts are irreconcilable ................................................... 8

B.

The Decisions of the Illinois courts and Alabama courts are
both supported by precedent, suggesting a pre-existing split ......... 9

This Court Should Address The Underlying Question Whether
Congress Actually Authorized The Surface Transportation Board To
Oversee A Broad, Costly Program Of Trails Act Takings......................... 13

CONCLUSION .............................................................................................................. 15

v

TABLE OF CITED AUTHORITIES
Page(s)
Cases:
Allegheny Valley R.R. Co.,
S.T.B. Dkt. No. FD 35388 (Apr. 25, 2011) .......................................................... 11
Burgoyne, LLC v. Chi. Terminal R.R. Co.,
2020 IL App (1st) 190098 (Ill. App. 2020) ............................................................. 1
Caldwell v. United States,
391 F.3d 1226 (Fed. Cir. 2004) .......................................................................... 13
Dana R. Hodges Trust v. United States,
111 Fed. Cl. 452 (2013) ...................................................................................... 13
Ingredion Inc.,
S.T.B. Dkt. No. FD 36014 (Sept. 30, 2016) ........................................................ 11
Knick v. Twp. of Scott, Pennsylvania,
139 S. Ct. 2162 (2019) ....................................................................................... 15
Lawson v. State,
730 P.2d 1308 (Wash. 1986) .............................................................................. 12
Marvin M. Brandt Revocable Trust v. United States,
572 U.S. 93 (2014) ............................................................................................. 10
Monroe County Comm’n v. A.A. Nettles, Sr. Properties Ltd.,
288 So. 3d 452 (Ala. 2019) .......................................................................... passim
Nat’l Wildlife Fed’n, v. ICC,
850 F.2d 694 (D.C. Dir. 1988) ...................................................................... 13, 14
Preseault v. ICC,
494 U.S. 1 (1990) ................................................................................... 10, 13, 14
Preseault v. United States,
100 F.3d 1525 (Fed. Cir. 1996) .......................................................................... 12
Ruckelshaus v. Monsanto Co.,
467 U.S. 986 (1984) ........................................................................................... 10
Tatum v. Green,
535 So. 2d 87 (Ala. 1988) ................................................................................... 11
Toews v. United States,
376 F.3d 1371 (Fed. Cir. 2004) .......................................................................... 12
Webb’s Fabu-lous Pharmacies, Inc. v. Beckwith,
449 U.S. 155 (1980) ........................................................................................... 10

vi

Statutes and Other Authorities:
16 U.S.C. § 1241 ............................................................................................................. 2
16 U.S.C. § 1246(g) ...................................................................................................... 14
16 U.S.C. § 1247(d) .................................................................................................. 1, 11
16 U.S.C. § 1249 ........................................................................................................... 14
16 U.S.C. § 1249(a)(1) .................................................................................................. 14
28 U.S.C. § 1257(a) ........................................................................................................ 1
49 U.S.C. § 10101 ........................................................................................................... 2
49 U.S.C. § 10501(b) ................................................................................................ 1, 11
49 U.S.C. § 10501(b)(2) ................................................................................................ 11
49 U.S.C. § 10903(a) .................................................................................................... 11

vii

OPINIONS BELOW
The opinion of the Illinois Appellate Court is located at Burgoyne, LLC v. Chi.
Terminal R.R. Co., 2020 IL App (1st) 190098 (Ill. App. 2020) and is reproduced in
Appendix B.
The Illinois Supreme Court denied certiorari, thereby adopting the decision of the
Illinois appellate court as the rule in Illinois at Appendix A.
The Decision and Notice of Interim Trail Use or Abandonment of the Surface
Transportation Board is available at STB Docket No. AB 1259 (April 30, 2018) and is
reproduced at Appendix E.

JURISDICTION
The Illinois Court of Appeals issued its decision on June 25, 2020. The Illinois Supreme
Court denied Petitioner’s Petition for Leave to Appeal on September 30, 2020. This
Court issued an Order extending the deadline to file this petition to 150 days from the
date of the Illinois Supreme Court’s denial of leave to appeal. This Court’s jurisdiction is
invoked under 28 U.S.C. § 1257(a).

RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS
The relevant constitutional and statutory provisions are as follows and are reproduced
at Appendix D:
The 5th Amendment to the United States Constitution
16 U.S.C. § 1247(d)
49 U.S.C. § 10501(b)

1

INTRODUCTION
This Petition presents a clear split in authority between state courts on a critically
important question of state-based property rights and competing federal interests in
preserving rail lines: whether private property owners retain any state-based or contractbased rights to their land if it contains a conditional railroad easement or whether the
Surface Transportation Board holds the authority to negate contractual lease terms
pertaining to the termination of railroad easements and revive railroad easements that
have terminated according to their terms. This petition presents the unresolved questions
cleanly and in a context where the competing interests of private property owners to
privately contract can be balanced against the Surface Transportation Board’s authority
to preserve and regulate rail travel. There are no outstanding issues of fact. This Court’s
intervention is necessary to resolve the conflict between state courts and provide a clear
means of establishing one truly uniform national rails-to-trails railbanking program.
State courts hold the authority to determine state law-based property rights.
Simultaneously, the Surface Transportation Board (“STB”) maintains that it retains
exclusive jurisdiction over the abandonment of railroad lines pursuant to the Interstate
Commerce Commission Termination Act of 1995 (“ICCTA”) (certified at 49 U.S.C. §
10101 et seq.) and National Trails System Act (“NTSA” or “Trails Act”), 16 U.S.C. § 1241
et seq. This contradiction in authority has led to an irreconcilable split between the courts
of different states regarding whether the STB has the authority to negate any and all state
property contracts that provide for termination and conditional use with regards to
easements or other access agreements granted to railroads in the interest of preserving
any and all rail lines.

2

This Court should resolve this conflict now before additional states continue to
splinter on the authority of the STB versus the obligation of rail companies to honor the
terms of their leases and contracts leaving the 140,000 miles of rail lines throughout the
United States operating under differing preservation rules.
STATEMENT OF THE CASE
This case involves a direct conflict between state and federal laws governing the
ownership of real property and the rights of railroads to profit from property rights that
they do not possess under state law. Because the STB maintains that they are the only
entity that may authorize abandonment of a rail line, easements that terminate according
to lease or contract terms may be revived by the STB and even converted to another use
not permitted by the terms of any existing agreement.
Petitioner Burgoyne, LLC (“Burgoyne” or “Petitioner”), owns a parcel of property in
Chicago in fee simple. Chicago Terminal Railroad Company, an Illinois corporation
(“CTR”), is a railroad common carrier and Iowa Pacific Holdings, LLC (“IPH”), is its parent
holding company. CTR formerly operated a rail line. A portion of that rail line was subject
to a conditional easement over Burgoyne’s property.
A Corrective Deed, approved by the United States District Court presiding over the
national railroad’s bankruptcy and reorganization proceedings in the 1970s and
supervised by the Interstate Commerce Commission, created the conditional easement.
(S.R. C19-48). The U.S. District Court presiding over the railroad bankruptcy proceedings
approved the Corrective Deed, which stipulated that the railroad’s easement would
automatically terminate if the rail line was not used in the active operation of the railroad
for a period of twelve (12) consecutive months. (Id.).

3

It is undisputed that: (1) Defendants failed to use the line for a period of over 12
months, (2) that Burgoyne notified Defendants that the conditional easement had
terminated by its own terms, and (3) that the conditional easement had expired by
operation of its express terms. Burgoyne filed an action in state court to enforce its title
to the Property by seeking to enforce the expiration of the easement.
Alloy Property Company, LLC, (“Alloy”) purchased vacant, formerly industrial
property in the North Branch area of Chicago that it has been attempting to redevelop.
Alloy filed an Application for Reverse Abandonment before the STB for a determination
that the public convenience and necessity required the adverse abandonment of the
authority of CTR to operate over portions of CTR’s lines in Chicago. This portion included
Petitioner’s property which was subject to the former easement held by CTR despite the
fact that Burgoyne was not a party to this STB action.
After CTR and IPH answered the complaint and filed affirmative defenses and
counterclaims, the Defendants filed a motion to dismiss the complaint asserting that
Plaintiff’s claims were preempted because the STB had exclusive jurisdiction over this
matter. The court stayed the action in light of an adverse possession proceeding before
the STB in which Burgoyne was not a party.
Presented with an opportunity to profit from its expired easement, CTR agreed to
convert the CTR rail line into a recreational trail pursuant to the Trails Act at the City’s
request. The STB ruled that the CTR rail corridor was “railbanked” under the National
Trail System Act (the “Act”). The STB approved and issued the City a Certificate of Interim
Trail Use (“CITU”) under the Trails Act so that the CTR rail corridor could be used for
public purposes. The CITU is the mechanism that ostensibly allows the City and CTR to

4

negotiate a trail use agreement for the railroad line in order for the City to develop that
area. The STB issued the CITU without regard for CTR’s lack of interest, easement, or
title holding that they had exclusive jurisdiction over rail lines and need not give credence
to state-based property rights or contractual agreements.
Burgoyne filed an action in state court to enforce its rights. CTR and the City filed
motions to dismiss asserting that the Act preempted Burgoyne’s claims. Defendants
alleged that because the STB had issued the CITU, the Act was still in effect and
Burgoyne’s only remedy is to bring a claim under the Tucker Act before the U.S. Court of
Claims. Burgoyne argued that Defendants had no right to enter into a trail use agreement
with the City because Defendants had no property rights following termination of the
easement by its express terms. The circuit court found that the CITU issued order
precluded the Plaintiff from proceeding on its claim that the easement was terminated
under State contract law. When the Illinois Supreme Court denied leave to appeal, the
decision of the Illinois Appellate Court became the official position of the Illinois courts.
Courts are divided as to whether state courts may apply state law to preserve
bargained for possessory property rights or the Surface Transportation Board has been
given the power to negate fee simple possession.
In Petitioner’s case, the lllinois Supreme Court refused to acknowledge the
property rights of Illinois landowners, holding all such rights that involve railroads are
necessarily subservient to the determinations of the Surface Transportation Board – even
where, as in the case at bar, the ICC oversaw the creation of the governing deed and its
terms that the STB subsequently refused to enforce. The Illinois courts allowed the STB
to disregard Illinois property law in order to fundamentally alter and expand the rights of

5

an expired easement holder. They not only permitted the sale of a terminated easement
but also created an easement for a use wholly distinct from, and not contemplated in, the
original deed.
The Alabama Supreme Court reached an opposite and irreconcilable holding in
Monroe County Comm’n v. A.A. Nettles, Sr. Properties Ltd., 288 So. 3d 452 (Ala. 2019).
The Nettles court held that Congress never intended to grant the STB absolute power to
negate all contractual property agreements involving railroads. Instead, Congress
intended to create a scheme within which, through proper procedures and without
violating established state court authority to adjudicate state property disputes or
contractual rights, the STB has jurisdiction over railroad lines. That is partly why it is so
critical to review cases like this one, which test the Surface Transportation Board’s
uncertain boundaries, affording it seemingly limitless power to negate contractual rights.
In the present case, oversight of the drafting of the deed by the ICC was not
enough to validate its terms. If approval of the controlling deed by the STB is not sufficient
to validate its terms, property owners need to know if they retain any rights to their own
land whatsoever once they allow the railroad access. Moreover, property owners across
the country need to know if the termination provisions in their deeds and leases remain
valid.
This Court should resolve this conflict now before state courts continue to split and
fracture over the issue. The STB has made clear that they will continue to adjudicate,
without regards to state laws, disputes involving abandonment of rail lines even where
the railroad’s easement or other right of access has otherwise terminated under state law.
Property owners require clarity regarding the validity of their existing contracts. Moreover,

6

property owners negotiating for new railroad easements and other rights of way need
clarity with regards to the reach of railroad agreements. Property owners have the right
to know whether the basic terms of their agreements will be honored or whether the STB
may alter the contractual terms by changing the type of access granted by a negotiated
instrument. In addition, there remains an unresolved question as to whether, in
authorizing the Trails Act, the United States Congress ever intended for a scheme as
massive and costly as the current rails-to-trails program to develop – and certainly there
remains the question of whether Congress ever intended for a rails-to-trails program to
fundamentally alter the very nature of contract and land rights, particularly those of an
individual property owner with no railroad or government affiliation.

REASONS FOR GRANTING THE WRIT
This case represents a direct conflict between the courts of two states that landed
on opposite sides of a property rights issue. The Alabama courts now recognize state
property rights and allow state courts to independently determine what rights exist under
state law. Illinois courts, on the other hand, have allowed the Surface Transportation
Board to determine all property rights related to rail lines, destroying contractual fee
simple possession and perpetuating terminated rights in contradiction of the plain
contractual bargained-for terms creating a windfall for CTR.
I.

The Decision Of The Illinois Courts Directly Conflicts With The Decision
Of the Alabama Courts.
The Petition presents a direct split in legal authority between the Alabama state

courts and the Illinois state courts. Both Illinois and Alabama courts considered whether
the Surface Transportation Board is the ultimate arbiter of rail rights to the negation of all

7

private property rights, regardless of contractual agreements or a non-rail owner’s
possession in fee simple.
A. The reasoning and conclusions of the Illinois courts and Alabama courts
are irreconcilable.
The decisions of the Illinois courts and the Alabama courts are opposed on every
material point. In holding that Petitioner’s claims were pre-empted, the Illinois appellate
court declined to follow the decision of the Alabama Supreme Court even though the issue
addressed in Monroe County Commission v. A.A. Nettles, Sr. Properties Limited and Eula
Lambert Boyles, 288 So.3d 452 (Ala. 2019), mirrors the issue decided by the Illinois
appellate court for all practical purposes. The Alabama Supreme Court summarized the
issue before it as follows:
In this case, we are not faced with an Alabama regulation attempting to
regulate rail transportation and to limit the use of rail property to deter
interstate commerce. Rather, we are dealing with state property laws that
existed before the advent of railroads, and we are asked to consider the
impact of a railroad right-of-way, reserved in a quitclaim deed, on the rights
of an adjoining property owner when the purpose of the right-of-way has
lapsed by nonuse and the holder of the right-of-way attempts to transfer its
interest to create a new use, not envisioned by the reservation of rights in
the initial instrument conveying the right-of-way.
Id. at 457.1
The Nettles Court then began its analysis by acknowledging that while the STB has
“undisputed” and “exclusive” jurisdiction over abandonment and interim trail use
proceedings, “even in a regime of federal preemption, determining the ownership of real

1

Rather than address the fact that Nettles relied on a breadth of precedent from a breadth of state and
federal case law, the appellate court both declined to distinguish Nettles and declined to follow it. Decision
at 20-21. Instead, the appellate court again reverted to its cherry-picked language from inapplicable nonanalogous cases that, contrary to the appellate court’s assertion, are not inconsistent with Nettles. The
appellate court simply declined to follow the only authority directly on point in furtherance of its inexplicable
quest to cede its own authority.

8

property requires a review of state law.” Nettles 288 So.3d at 458. Under the Alabama
Supreme Court’s analysis, trail use was “not envisioned by the reservation of rights in the
initial instrument conveying right of way” which provided for a right of way only for a rail
line. Id. at 457. Because the railroad did not own a blanket right of way across the land, it
could not quitclaim its interest to another entity, regardless of the rails to Trails Act. As a
result, the Alabama Supreme Court held that Monroe County could not have obtained a
valid fee title to the easement from the railroad pursuant to state property laws. As
Alabama Chief Justice Parker explained in his dissent, the railroad had “negotiated for
the right to use the easement for railroad operations. The railroad did not negotiate for a
public recreational trail.” Id. at 463.
Rather than address the fact that Nettles relied on a breadth of precedent from a
breadth of state and federal case law, the Illinois appellate court both declined to
distinguish Nettles and declined to follow it. App. B at 20-21. Instead, the Illinois court
found the deed and its terms to be of no import because only the STB could authorize
abandonment of a rail line. Pursuant to the Illinois appellate court’s ruling and the STB’s
holding, the termination of the easement and the limited purpose of the easement set
forth in the controlling deed were of no import.
B. The Decisions of the Illinois courts and Alabama courts are both
supported by precedent, suggesting a pre-existing split.
At the center of both the Illinois and Alabama decisions is a question over state
law property rights in a former rail path running through a private owner’s property. In both
Alabama and Illinois, the railroad held a limited easement that allowed for rail line access.
In Petitioner’s case, this limited easement terminated according to its terms when the
railroad ceased operations for more than a year. In the Alabama case, the railroad sold

9

whatever remaining easement rights it had to a third party after over a decade of nonuse.
The purchasing third party then claimed it held a fee title to the right-of-way from its
purchase of the limited easement.
State courts traditionally have the authority to resolve state law. The Illinois courts
refused to consider or resolve any of the state law issues in Petitioner’s case while the
Alabama courts had no such reservations. In Nettles, the Alabama Supreme Court
concluded that “even in a regime of federal preemption, determining the ownership of real
property requires a review of state law.” Nettles 288 So.3d at 458. This Court recognizes
“that ‘[p]roperty interests … are not created by the Constitution. Rather, they are created
and their dimensions are defined by existing rules or understandings that stem from an
independent source such as state law.” Ruckelshaus v. Monsanto Co., 467 U.S. 986,
1001 (1984) (quoting Webb’s Fabu-lous Pharmacies, Inc. v. Beckwith, 449 U.S. 155, 161
(1980) (alterations in Ruckelshaus)). Cf. Marvin M. Brandt Revocable Trust v. United
States, 572 U.S. 93, 104-05 (2014) (“The essential features of easements—including,
most important here, what happens when they cease to be used—are well settled as a
matter of property law.”).
In Preseault v. ICC (Preseault I), 494 U.S. 1, 8, 15-16 (1990), this Court examined
the role of state law in rails-to-trails conversion schemes. Justice O’Connor, joined by
Justices Scalia and Kennedy, emphasized in her concurrence that “state law determines
what property interest petitioners possess.” Id. at 20 (O’Connor, J., concurring).
Moreover, Justice O’Connor went so far as to suggest that allowing the decisions of the
STB to pre-empt the rights guaranteed by state property law would render “a result
incompatible with the Fifth Amendment.” Id. at 22.

10

While the STB itself has frequently claimed absolute jurisdiction over
abandonment, it has also recognized the significant role state law plays in assessing
property rights in the context of rail regulation. See Allegheny Valley R.R. Co., S.T.B. Dkt.
No. FD 35388, at 3 (Apr. 25, 2011) (determining 49 U.S.C. § 10501(b) did not preempt
plaintiff’s claims because “the size and extent of a railroad easement is a matter of state
property law and best addressed by state courts”); see also Ingredion Inc., S.T.B. Dkt.
No. FD 36014, at 3 (Sept. 30, 2016) (declining to exercise jurisdiction over “a claim that
an easement agreement was violated” because it “primarily involves the application of
state property law” and “the state court is able to address any preemption arguments”).
The Supreme Court of Alabama recognized that the STB’s jurisdiction over
“abandonment” of railroad lines is “exclusive,” 49 U.S.C. §§ 10501(b)(2), 10903(a), and it
noted that § 8(d) of the Trails Act provided interim trail use of a railroad line would “not be
treated … as an abandonment,” 16 U.S.C. § 1247(d). The Supreme Court of Alabama’s
decision turned on a traditional analysis of state law and relied on the state court’s power
to determine state property rights. The Commission traced its ownership of the right-ofway to its purchase, by quitclaim deed, of land from the railroad. Under the law of Alabama
(as almost all states), the railroad could only transfer by quitclaim deed the property rights
it actually possessed at the time of execution. Nettles 288 So.3d at 457-458. Thus, the
Alabama Supreme Court held that when the “purpose” for a limited purpose easement
“ceases to exist” or “is rendered impossible of accomplishment,” the easement
“terminates.” Nettles, 288 So.3d at 459 (citing Tatum v. Green, 535 So.2d 87, 88 (Ala.
1988)). The Court held that as a matter of Alabama property law, the railroad’s easement

11

had been extinguished by operation of law long before any trail conversion or rail
abandonment proceedings were even contemplated.
In deciding which state-law rights passed from the railroad to the Commission, the
Nettles Court examined the limited language of the railroad’s deed and determined the
original limited easement held by the railroad did not include the right to recreational trail
use. Nettles, 288 So.3d at 459. According to the Alabama Supreme Court, limited
easement rights could not be expanded unilaterally by an easement holder. Nettles, 288
So.3d at 459. Alabama property law, as interpreted by the Alabama Supreme Court, did
not allow the grant of a right-of-way for recreational trail purposes where such an interest
could not be conveyed via quitclaim deed. This conclusion comports with basic principles
of property law and common sense, as well as with the laws of other states. See, e.g.,
Toews v. United States, 376 F.3d 1371, 1375-77 (Fed. Cir. 2004) (California law);
Preseault v. United States (Preseault III), 100 F.3d 1525, 1534 (Fed. Cir. 1996) (en banc)
(discussing the importance of Vermont state law in ascertaining the parties’ property
interests); Lawson v. State, 730 P.2d 1308, 1311-12 (Wash. 1986). Cf. Lawson, 730 P.2d
at 1316 (“We note that, insofar as the present record reveals, the County has only
acquired, through a quitclaim deed, whatever interest Burlington Northern held. There is
a strong argument to be made that Burlington Northern had no interest to convey to the
County: upon abandonment of the right-of-way the land automatically reverted to the
reversionary interest holders.”); Toews, 376 F.3d at 1376 (concluding rail use easement
did not include recreational hiking or biking because it is “beyond cavil that use of these
easements for a recreational trail is not the same use made by a railroad”).

12

The Alabama Supreme Court fully adopted the position that the STB’s authority
under the Trails Act does not empower it to redefine state property rights. See also, e.g.,
Dana R. Hodges Trust v. United States, 111 Fed. Cl. 452, 456-57 (2013) (holding the
“Trails Act has not ‘destroyed’ or ‘eliminated’ [adjacent landowners’] pre-existing
[property] crossing rights,” and rejecting the “argument that the Trails Act precludes all
state law property law claims”). The Illinois Court of Appeals reached the completely
opposite result when it determined that terminating a railroad easement required
abandonment of the rail line and only the STB may authorize abandonment. Without the
intervention of this Court, state courts will continue to divide on this issue.
II.

This Court Should Address The Underlying Question Whether Congress
Actually Authorized The Surface Transportation Board To Oversee A
Broad, Costly Program Of Trails Act Takings.

The plain language of the Trails Act does not contemplate takings like this one.
Congress did not envision the extensive taking of property for the rails-to-trails program.
Congress failed to address how takings should proceed or be assessed in the context of
rails-to-trails conversions. See Caldwell v. United States, 391 F.3d 1226, 1229 (Fed. Cir.
2004) (the Trails Act “does not specify in detail what procedures are to be followed” when
the STB’s actions constitute a federal taking). The NTSA provides no authority or
procedure for the Board to condemn private land burdened by a railroad easement.
Similarly, the NTSA does not provide any timeframe for seeking just compensation. The
Trails Act’s plain language and history strongly suggest that the Board lacks
condemnation authority. See Nat’l Wildlife Fed’n, v. ICC, 850 F.2d 694, 699-702 (D.C.
Dir. 1988). This Court has previously observed that even the STB acknowledges that limit
to its own power. See Preseault I, 494 U.S. at 15 n.8.

13

The “conspicuous absence” in NTSA § 8(d) “of any explicit condemnation power,” Nat’l
Wildlife Fed’n, 850 F.2d. at 700, is especially striking when compared to neighboring
sections of the Trails Act that grant takings power to other entities for similar trail projects.
In the context of these adjacent provisions, Congress expressly empowers the Secretary
of the Interior to “utilize condemnation proceedings” for trail acquisition. 16 U.S.C. §
1246(g). Congress also expressly limits the use of takings powers, authorizing
condemnation only where; “all reasonable efforts to acquire such lands or interests
therein by negotiation have failed”; moreover, the amount of land the Secretary may
condemn is limited by a statutorily prescribed ratio. Id. In addition, Congress explicitly
provides a funding mechanism for the federal acquisition of private land for trails. See
generally 16 U.S.C. § 1249; see also, e.g., id. § 1249(a)(1) (authorizing $5 million in
appropriations for the Appalachian National Scenic Trail and $500,000 for the Pacific
Crest National Scenic Trail). There is no funding mechanism for takings involving former
rail lines, indicating that Congress never contemplated creating such a massive takings
program in the first place.
Though the STB, in conjunction with the Court of Federal Claims, has developed a
massive inverse condemnation regime, there is no indication that Congress actually
contemplated or authorized it. While the Preseault Court held that the availability of just
compensation under the Tucker Act prevented the Trails Act from violating the Fifth
Amendment, the availability of damages under the Tucker Act does not evidence the
intent of Congress. There is no evidence that Congress ever intended the National Trails
System Act to become an extensive expensive takings program.

14

Rather, it should require clear and unambiguous congressional authorization. Cf.
Knick v. Twp. of Scott, Pennsylvania, 139 S. Ct. 2162, 2180 (2019) (Thomas, J.,
concurring) (“This ‘sue me’ approach to the Takings Clause is untenable.”). This Court
should consider whether the current takings program, encroaching on the property rights
of landowners throughout the country, costing tax-payers hundreds of millions of dollars
should simply be assumed as intended by Congress.
CONCLUSION
For the foregoing reasons, the petition for a writ of certiorari should be granted for plenary
review. In the alternative, the Court may wish to consider summarily reversing the
decision below.
Respectfully submitted,
GEORGE S. BELLAS
Counsel of Record
JILLIAN TATTERSALL
MIS TY J. CYGAN
BELLAS & WACHOWSKI
15 North Northwest Highway
Park Ridge, Illinois 60068
(847) 823-9030
george@bellas-wachowski.com
Counsel for Petitioner

15

APPENDIX A

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE

George Steven Bellas
Bellas & Wachowski
15 N. Northwest Highway
Park Ridge IL 60068

160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332

TDD: (312) 793-6185

September 30, 2020
In re:

Burgoyne, LLC, etc., petitioner, v. Chicago Terminal Railroad
Company, etc., et al., respondents. Leave to appeal, Appellate
Court, First District.
126224

The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 11/04/2020.

Very truly yours,

Clerk of the Supreme Court

APPENDIX B

'.
2020 IL App (1st) 190098
No. 1-19-0098
Opinion filed June 25, 2020
Fourth Division

IN THE
APPELLATE COURT OF ILLINOIS
FIRST DISTRICT

BURGOYNE, LLC, an Illinois Limited Liability
Company,
Plaintiff-Appellant,

v.
CHICAGO TERMINAL RAILROAD COMPANY,
an Illinois Corporation, and IOWA PACIFIC
HOLDINGS, LLC, an Illinois Limited Liability
Company,
Defendants-Appellees
(The City of Chicago, a Municipal Corporation,
Intervenor-Appellee).

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Appeal from the Circuit Court
of Cook County

No. 17 CH 6199

Honorable
Pamela McLean Meyerson,
Judge, presiding.

JUSTICE LAMPKIN delivered the judgment of the court, with opinion.
Presiding Justice Gordon and Justice Reyes concurred in the judgment and opinion.

OPINION
~

I

This appeal arises from a dispute between a rail carrier and the owner of land over which

the rail carrier held an easement to operate its rail line. Contending that the easement terminated
due to nonuse, the landowner, Burgoyne, LLC (Burgoyne), sued the rail carrier, Chicago Terminal

No. 1-19-0098

Railroad Company, and its parent company, Iowa Pacific Holdings, LLC (which we will
collectively call CTR), to enforce its reversionary interest in the property. While -the case was
pending, CTR received permission from the federal agency that oversees rail transportation to
transfer its right-of-way to the City of Chicago (City) for use as a recreational trail. The City then
intervened and both it and CTR filed motions to dismiss Burgoyne's suit as preempted under
federal law. The circuit court granted the motions, and Burgoyne now appeals. For the reasons that
follow, we affirm. 1
~

2

I. BACKGROUND

~

3

A. Statutory Background

.~ 4

This case concerns the preemptive effect of two federal statutes: the ICC Termination Act

ofl995 (ICCTA) (codified at 49 U.S.C. § 10101 et seq.) and the National Trails System Act (Trails
Act) (codified at 16 U.S.C. § 1241 et seq.). The ICCTA vests the United States Surface
Transportation Board (SIB or Board) with exclusive jurisdiction over "transpmtation by rail
carriers" and the "abandonment" of rail lines. 49 U.S.C. § 10501(b) (2018): "[T]he remedies
provided under [the ICCTA] Vl;ith respect to regulation of rail transportation are exclusive and
preempt the remedies provided under Federal or State law." I d.
~

5

Under the ICCTA, a rail carrier may abandon a rail line "only if the Board finds that the

present or future public convenience and necessity require or permit the abandonment." 49 U.S.C.
§ 10903(d) (2018). An application for authorization to abandon a line may be filed by either the
rail carrier or_ an interested third party, such as an adjacent landowner with a claim to a reversionary

1In adherence with the requirements of Illinois Supreme Comt Rule 352(a) (eff. July I, 20 18), this
appeal has been resolved without oral argument upon the ent1y of a separate written order.
- 2-

No. 1-19-0098

interest in the railroad's right-of-way. Thompson v. Texas Mexican Ry. Co., 328 U.S. 134, 145
(1946); City of South Bend v. Surface Transportation Board, 566 F.3d 1166, 1168 (D.C. Cir.
2009); see Preseau/t v. Interstate Commerce Comm 'n, 494 U.S. I, 8 (1990) (explaining that "many
railroads do not own their rights-of-way outright but rather hold them under easements or similar
property interests'; that "revert[ ] to the abutting landowner upon abandonment of rail operations").
An application filed by a third party is called an application for adverse abandonment. Howard v.

Swface Transportation Board, 389 F.3d 259,261 (1st Cir. 2004). If the Board determines that the
public convenience and necessity support abandonment, it may either "approve the application as
filed" or "approve the application with modifications and require compliance with conditions that
[it] finds are required by public convenience and necessity." 49 U.S.C. § 10903(e)(l). The Board
maintains jurisdiction over a rail line, and the line remains part of the national rail network, until
the Board issues an unconditioned certificate of abandonment (Hayfield Northern R.R. Co. v.

Chicago & North Western Transportation Co., 467 U.S. 622, 633 (1984)) and the rail carrier
notifies the Board that it has consummated the abandonment (49 C.F.R. § 1152.29(e)(2) (2019)).
~

6

The second federal statute at issue, the Trails Act, was enacted to create a national system

of recreational trails. See 16 U.S.C. § 1241 (2018). Congress amended the Trails Act in 1983 (see
Pub. L. 98-11, § 208, 97 Stat. 42, 48) to allow for unused railroad rights-of-way to be converted
to recreational trails on an interim basis as an alternative to abandonment. See 16 U.S. C.§ 1247(d)
(20 18). The purpose of the amendment was to promote the development of recreational trails while
preserving established rail corridors for possible future reactivation of rail service. Preseault, 494
U.S. at 17-18. To that end, when an abandonment application is filed, a state, local government,
or private organization acting as a "trail sponsor" may submit a request to use the right-of-way for

-3-

No. 1-19-0098

interim trail use. 49 C.F.R. § 1152.29(a). The trail sponsor must be willing to assume responsibility
for the right-of-way and acknowledge that its interim trail use will be subject to possible future
reactivation of the right-of-way for rail service. 49 C.F.R. § 1152.29(a)(2), (3). If the rail carrier is
willing to negotiate a trail use agreement, and the conditions for abandonment are otherwise
satisfied, the STB will issue a ceriificate of interim trail use or abandonment (CITU), allowing the
parties to negotiate an interim trail use agreement. 49 C.F.R. § 1152.29(b)(1 )(ii). If the parties are

'
unable to reach an agreement on interim trail use, the rail carrier will then be authorized to abandon
. the line. See Preseault, 494 U.S. at 7 & u.S.
~

7

If the rail carrier and trail sponsor do come to an agreement, the rail carrier may transfer

the right-of-way to the trail sponsor for interim trail use, "subject to restoration or reconstruction
forrailroad purposes." 16 U.S.C. § 1247(d); seePreseau/t, 494 U.S. at 7. As noted above, railroads
often hold their rights-of-way under easements that are limited to use for railroad purposes.
Preseault, 494 U.S. at 8. The terms ofthese easements (and state property law) frequently "provide

that the properiy reveris to the abutting landowner upon abandonment of rail operations." Jd If
rails-to-trails conversions were to trigger such reversionary interests, however, it would largely
impede the Trails Act's dual goals of creating recreational trails and preserving established rail
corridors for future reactivation of rail service. To address these problems, the Trails Act (as
amended) provides that interim trail use "shall not be treated, for purposes of any law qr rule of
law, as an abandonment of the use of such rights-of-way for railroad purposes." 16 U.S.C.

§ 1247(d). In other words, when a right-of-way held under a limited-use easement is transferred
for interim trail use, the Trails Act "prevent[s] properiy interests [in the right-of-way] from
reverting under state law." Preseau/t, 494 U.S. at 8. In such cases, the Trails Act effects a taking

- 4-

No. 1-19-0098

of the abutting landowner's reversionary interest, for which it may seek just compensation in the
United States Court of Federal Claims. !d. at 11-12.
~

8

~

9

B. Factual and Procedural History
Burgoyne owns a parcel ofland near the site of the planned Lincoln Yards development in

Chicago. The property is bounded by North Avenue to the south, Kingsbmy Street to the northeast,
and the N011h Branch of the Chicago River to the west. A single, mainline railroad track extends
across a portion of the prope11y. The track is part of a larger rail line spanning approximately 2.875
miles, which originates northwest of the property, at Union Pacific's North Avenue Yard, and
proceeds east and south to a terminus at the southern end of Goose Island, south of the property.
~

10

Burgoyne purchased the property in 2000 from CMC Real Estate Corporation (CMC). In

1987, CMC granted an easement across the property for railroad purposes to Soo Line Railroad

Company (Soo Line). The corrective deed conveying the easement provided that the easement
would terminate automatically if it was not used in the active operation of a railroad for
12 consecutive months. The deed further provided that, upon termination of the easement, Sao

Line would remove the tracks and other railroad equipment from the property and execute
documentation to evidence the easement's termination. The deed was issued under the supervision
of the federal bankruptcy court overseeing the railroad reorganization proceedings for CMC's
predecessor-in-interest, the Chicago, Milwaukee, St. Paul and Pacific Railroad Company. In 2006,
CTR acquired Sao Line's interest in the rail line at issue, including the easement across Burgoyne's ·
prope11y.
~

11

In August 2016, Burgoyne notified CTR that the easement had terminated because it had

not been used in active railroad operations for 12 consecutive months. Burgoyne instructed CTR

-5-

No. 1-19-0098

to remove the tracks and other railroad equipment from the prope1ty and reserved its right to
request that CTR execute documentation evidencing the termination. CTR disputed that the
easement had terminated and refused to remove its tracks and other equipment from the property.
Burgoyne responded by erecting a fence around the prope1ty and across the tracks.
~

12

On two occasions in April20 17, CTR entered Burgoyne's property and cut down the fence.

Each time, Burgoyne reinstalled the fence. After the second such incident, Burgoyne commenced

•

the present action in the circuit court, alleging that the easement across its property had terminated
under the terms of the corrective deed. Burgoyne's complaint sought to enjoin CTR from further
damaging or removing its fencing. It also sought an order directing CTR to remove the railroad
tracks fi'om the property and seek and obtain any authorization required to effectuate the
easement's termination. In addition, Burgoyne requested monetary damages for CTR's alleged
breach of the corrective deed and for CTR's destruction of its fencing.
~

13

CTR moved to dismiss the complaint under section 2-619 of the Code of Civil Procedure

(735 ILCS 5/2-619 (West 201 6)), asserting that Burgoyne's claims were preempted by the ICCTA.
CTR argued that, because the STB has exclusive jurisdiction over the abandoment of rail lines,
the circuit court lacked jurisdiction to grant Burgoyne's requested relief, which would effectively
cause an unauthorized abandoment ofCTR's rail line. In response, Burgoyne acknowledged that
the STB had exclusive jurisdiction over the abandoment of rail lines, but it insisted that its claims
did not implicate any issue of abandoment. Rather, Burgoyne argued, its claims rested on state
property and contract law, the enforcement of which did not constitute regulation within the STB's
exclusive jurisdiction.

-6-

No. I- I 9-0098

~

I4

In June 20 I 7, while the motion to dismiss was pending, Alloy Property Company (Alloy),

which owns land to the north of Burgoyne's property that is also traversed by CTR's rail line, filed
a petition with the STB indicating its intent to file an application for adverse abandonment of the
rail line and requesting a waiver of certain regulations. In September 2017, after the STB granted
its waiver request, Alloy filed a notice of intent to file an adverse abandonment application, which
it formally filed in October 20I 7. Over Burgoyne's objection, the circuit comt stayed the present
action until the STB issued a decision on Alloy's adverse abandonment application. We affirmed
the stay order on appeal. Burgoyne, L.L.C. v. Chicago Terminal R.R. Co., 20I8 IL App (1st)
172500-U.
~

15

In January 2018, CTR notified the STB that it would not oppose Alloy's application and

agreed that the public convenience and necessity supported abandonment of its line. The City then
filed a request for interim trail use, stating that it was willing to assume responsibility for the rightof-way and acknowledging that any trail use would be subject to possible future reconstruction
and reactivation of the right-of-way for rail service. CTR indicated that it was willing to negotiate
an interim trail use agreement with the City. Burgoyne then submitted a letter discussing the
pending state-court litigation. Burgoyne asserted that CTR had no authority to negotiate an interim
trail use agreement for the portion of the rail line that crossed its property because CTR's easement
over the property had terminated. Burgoyne thus asked that the STB not to include its property in
any CITU.
~

I6

In April20I8, the STB granted Alloy's application and issued a CITU allowing the City

and CTR to negotiate an interim trail use agreement. The order stated that if the City and CTR
reached an agreement, interim trail use would be permitted, subject to possible future

- 7-

No. 1-19-0098

reconstruction and reactivation of the right-of-way for rail service. If the patiies were unable to
reach an agreement, CTR would be authorized to abandon the line. The Board denied Burgoyne's
request to exclude its property from the CITU, explaining that it had no discretion to deny a request
for interim trail use that satisfied the requirements of the Trails Act and the Board's rules, but it
noted that issuance of the CITU was "not intended to address the merits of any pending litigation."
~

17

After the STB issued its decision, the circuit courtJifted the stay in the present action and

granted the City's motion to intervene to protect its interest in the rail corridor. CTR and the City
then filed separate motions to dismiss, each arguing that Burgoyne's claims were preempted by
the ICCTA and the Trails Act. In December 20 I 8, the circuit court granted the motions to dismiss.
The com1 explained that, because the STB had authorized interim trail use, the Trails Act
"precludes [Burgoyne] from arguing that the easement terminated under State contract law" and
preempts Burgoyne's claims. The court noted that its decision was without prejudice to any takings
claim Bmgoyne may bring in the federal court of claims. Burgoyne then filed a timely notice of
appeal 2
~ 18
~ 19

II. ANALYSIS
Federal preemption arises from the supremacy clause of the United States Constitution,

which provides that federal law "shall be the supreme Law of the Land." U.S. Const., art. VI.,
cl. 2. Under the supremacy clause, a state law that contradicts or interferes with federal law is

2

While briefing was undenvay, the City filed a notice with the STB·to acquire CTR's right to
reactive rail service on the line that is subject to the CJTU. See City of Chicago-Acquisition ExemptionChicago Tenninal Railroad, 84 Fed. Reg. 37,944 (Aug. 2, 20 19). CTR later assigned to the City its right to
resume rail service and its interest in the easement across Burgoyne's property. See Cook County Recorder
of Deeds, Online Recordings Search, https://v.,ww.ccrecor<ler.org/recordings/recording/show/130376223
(last visited June 11, 2020) [https://penna.cc/WE6X-'NNFH]. The City then notified the STB that it had
reached an agreement for interim trail use with CTR.

- 8-

No. 1-19-0098

preempted. Wisconsin Public Intervenor v. Mortier, 50! U.S. 597, 604 (1991). Federal law may
preempt state law either expressly or by implication. A/tria Group, Inc. v. Good, 555 U.S. 70, 76
(2008). In either case, "[t]he key inquiry*** is to determine the intent of Congress." Carter V.

sse

Odin Operating Co., 237 Ill. 2d 30,40 (2010). Because federal preemption presents a question of
law, we review the issue de novo. People v. Williams, 235 Ill. 2d 178, 186 (2009). We likewise
review de novo a circuit court's order dismissing an action under section 2-619. First Midwest

Bankv. Cabo, 2018 IL 123038,
~

20

~

16.

Congress enacted the ICCTA to abolish the Interstate Commerce Commission (ICC) and

transfer its regulatory authority over the rail transportation system to the STB. Wedemeyer v. CSX

Transportation, Inc., 850 F. 3d 889, 894 (7th Cir. 2017). The ICCTA provides that:
"The jurisdiction of the Board over(!) transportation by rail carriers, and the remedies provided

in this part with respect to rates, classifications, rules (including car
service, interchange, and other operating rules), practices, routes,
services, and facilities of such carriers; and
(2) the construction, acquisition, operation, abandonment, or
discontinuance of spur, industrial, team, switching, or side tracks, or
facilities, even if the tracks are located, or intended to be located,
entirely in one State,
is exclusive. Except as otherwise provided in this part, the remedies provided under
this part with respect to regulation of rail transportation are exclusive and preempt
the remedies provided under Federal or State law." 49 U.S.C. § 1050l(b).

- 9-

No. 1-19-0098

The ICCTA's predecessor statute, the Interstate Commerce Act, was "among the most pervasive
and comprehensive of federal regulatory schemes." Chicago & North Western Transportation Co.
v. Kala Brick & Tile Co., 450 U.S. 311,318 (1981). The same is true of the ICCTA. Indeed,

"Congress's intent in the [ICCTA] to preempt state and local regulation of railroad transportation
has been recognized as broad and sweeping." Union Pacific R.R. Co. v. Chicago Transit Authority,
647 F.3d 675, 678 (7th Cir. 2011).
'if21

As relevant here, the ICCTA endows the STB with exclusive authority to regulate the

abandomnent of rail lines. See Chicago & North Western Transportation Co., 450 U.S. at 320
(describing the ICC's authority to regulate abandomnents under the Interstate Commerce Act as
"exclusive" and "plenary"). Under the ICCTA, a rail carrier may not "abandon any part of its.
railroad lines" unless "the Board finds that the present or future public convenience and necessity
require or permit the abandonment." 49 U.S.C. § 10903(d). Unless the Board issues an
unconditioned certificate of abandomnent for a rail line, the Board retains jurisdiction over the line
and the line remains part of the national rail network. See Hayfield Northern R.R. Co., 467 U.S. at
633.
'if22

State and local actions may be preempted by the ICCTA either categorically or on an as-

applied basis. Union Pacific R.R. Co., 64.7 FJd at 679; CSX Transportation, Inc., STB Finance
Docket No. 34662, 2005 VlL 1024490, at *2-3 (May 3, 2005). As noted, the ICCTA's express
preemption clause states that "the remedies provided under [the ICCTA] with respect to regulation
of rail transportation are exclusive and preempt the remedies provided under*** State law."
49 U.S.C. § 10501(b). By focusing on "regulation," the ICCTA expressly preempts only those
state laws that '.'have the effect of manag[ing] or govern[ing] rail transportation," while allowing

- 10-

No. 1-19-0098

"application of laws having a more remote or incidental effect on rail transportation." (Internal
quotation marks omitted.) Franks Investment Co. v. Union Pacific R.R. Co., 593 FJd 404, 410
(5th Cir. 20 I 0). Thus, "actions by a state or local body [that] would directly conflict with exclusive
federal regulation of railroads" are categorically preempted. CSX Transportation, 2005 WL
1024490, at *3. Such actions include "any form of state or local permitting or preclearance.
that*** could be used to deny a railroad the ability to conduct some pmi of its operations or to
proceed with activities that the Board has authorized" and "state or local regulation of matters
directly regulated by the Board[,] such as the construction, operation, and abandonment of rail
lines." Id. at *2.
'i[23

In addition to those actions that are expressly and categorically preempted, the ICCTA also

impliedly preempts, on an as-applied basis, any state or local action that "would have the effect of
preventing or unreasonably interfering with railroad transportation." Id. at *3; see Union Pacific

R.R. Co., 647 FJd at 679. To determine whether an action would prevent or unreasonably interfere
with rail transportation, courts must conduct "a factual assessment of the effect of providing the
claimed remedy." PCS Phosphate Co. v. Nmfolk Southem Corp., 559 FJd 212, 221 (4th Cir.
2009).
'i[24

Under these principles, we conclude that Burgoyne's claims are not categorically

preempted by the ICCTA, but that they are preempted as applied. With respect to categorical
preemption, we note that Burgoyne's claims rest on general principles of state property and
contract law that cannot be said to "have the effect of manag[ing] or govern[ing] rail
transportation." (Internal quotation marks omitted.)' Franks Investment Co., 593 F.3d at 410.
Moreover, Burgoyne's claims arise from a "[v]oluntary agreement[] between private parties."

- 11 -

No. 1-19-0098

PCS Phosphate Co., 559 F.3d at 218. Because such agreements "are not presumptively regulatory

acts," they do not "constitute the sort of'regulation' expressly preempted by the statute." !d.
~

25

Although not categorically preempted, Burgoyne's claims are preempted as applied due to

the effect that the claimed remedies would have on rail transportation. Burgoyne's complaint seeks
to force CTR to remove its tracks from the right-of-way and prohibit it from removing a fence that
blocks access to its rail line. That relief would make it impossible for CTR to conduct rail service

'

on the line and would effectively result in the line's unauthorized abandonment. It is diffrcult to
see how such relief would not prevent or unreasonably interfere with rail transportation. The same
is true of Burgoyne's request for monetary relief, which rests on its contention that CTR has lost
the right to access the tracks that cross its property. To prevent CTR from continuing to access and
operate its rail line "through an award of damages" would prevent and unreasonably interfere with
rail transportation "as effectively" as an award of "preventive relief." (Internal quotation marks
omitted.) Cipollone v. Liggett Group, Inc., 505 U.S. 504,521 (1992) (opinion of Stevens, J.,joined
by Rehnquist, C.J., and White and O'Connor, JJ.).
~ 26

Burgoyne's complaint also asked the circuit court to order CTR to "seek[] and obtain[]"

authorization to abandon the line. Even assuming that the circuit court could have ordered CTR to
seek abandorunent authority (a point on which we express no opinion), it certainly could not
require the STB to grant such authority. Nor could the circuit court have prevented CTR from
negotiating an interim trail use agreement as an alternative to abandorunent. Such relief would
unreasonably interfere with the STB's exclusivejurisdiction to impose conditions on a rail carrier's
abandorunent of a rail line (49 U.S.C. § 10903(e)(l)(B)) and conflict with "the national policy to
preserve established railroad rights-of-way for future reactivation of rail service" (16 U.S.C.

- 12 -

No. 1-19-0098

§ 1247(d)). Indeed, once the STB declined to authorize abandorm1ent and instead issued a CITU,
granting Burgoyne's requested relief would have required the circuit court to effectively invalidate
the CITU. But Congress has given the federal courts of appeals exclusive jurisdiction over
challenges to the Board's decisions. See Grantwood Village v. Missouri Pacific R.R. Co., 95 F.3d
654,658 (8th Cir. 1996) (citing 28 U.S. C.§ 2342(5) (1994)). Burgoyne could have challenged the
CITU in the proper federal appeals court, but it cannot do so in the state circuit court.
~

27

In its attempt to resist this conclusion, Burgoyne insists that it seeks only to enforce its state

law property and contract rights and that its complaint raises no issue of abandonment under the
ICCTA. But a party may not avoid the STB 's exclusive jurisdiction to regulate abandonments "by
mere artful pleading." Chicago & North Western Transportation Co., 450 U.S. at 324. "ICCTA
preemption does not depend upon the source of a state law claim" but on the effect "the requested
remedy" would have on rail transportation. City ofOzark v. Union Pacific R.R. Co., 843 F.3d 1167,
1172 (8th Cir. 2016). As explained above, granting Burgoyne's requested relief would prevent and
unreasonably interfere with rail transportation and conflict with the STB's exclusive jurisdiction
over the abandonment of rail lines. For that reason, Burgoyne's claims are preempted by the
ICCTA.
~

28

Burgoyne argues that enforcement of a voluntary agreement cam1ot be preempted by the

ICCTA because such agreements do not constitute state regulation. But while the ICCTA's express
preemption provision is limited to state or local action regulating rail transportation, an implied
preemption analysis under the statute is not similarly cabined. The Fourth Circuit's decision in
PCS Phosphate Co., on which Burgoyne places great emphasis, demonstrates this point. There,

the court held (as noted above) that voluntary agreements between private parties "are not

- 13 -

No. 1-19-0098

presumptively regulatory acts" and thus do not "constitute the sort of 'regulation' expressly
preempted by the statute." PCS Phosphate Co., 559 F.3d at 218. Nevertheless, the court proceeded
to consider whether enforceinent of the agreement at issue was impliedly preempted under the
particular facts of the case. I d. at 220. The court ultimately concluded that the agreement did not
unreasonably interfere with rail transportation, but it did not rule out the possibility that
enforcement of voluntary agreements could be impliedly preempted under different circumstances. ,
See id. at 221-22 ("This is not to say that a voluntary agreement could never constitute an
'umeasonable interference' with rail transportation***.").
~

29

Burgoyne also relies on the Seventh Circuit's dictum that "there is no issue of federal

preemption" where "a state or local government secures the use of property in a way that affects
railroad transportation by contract or other agreement." Union Pacific R.R. Co., 647 F.3d at 682.
According to Burgoyne, that statement supports its position that the enforcement of a private
contractual agreement is never preempted by the ICCTA. But we find that position impossible to
square \>iith Thompson, 328 U.S. at 146-49, which held that a private contract could not be used to
bypass the ICC's exclusive jurisdiction to regulate abandonment of rail lines. There, one railroad
company (Brownsville) contracted to operate its trains over the tracks of another railroad company
(Tex-Mex). I d. at 136. Tex-Mex later attempted to cancel the agreement under the terms of the
contract, but Brownsville continued to use the tracks and refused to pay any additional fees. I d. at
137. In reversing a lower court's award of damages, the Supreme Court held that, even "[t]hough
the contract [had been] terminated pursuant to its terms, a certificate [of abandonment from the
ICC] would still be required" before Brownsville could be forced to stop using the tracks. Jd. at
145. "Until abandonment is authorized," the Court explained, "operations must continue." Jd. at

- 14-

No. 1-19-0098

147. The same principle governs here. Even if CTR's easement over Burgoyne's property has
terminated under the terms of the corrective deed, CTR may not be forced off the right-of-way and
prevented from operating its rail line until the SIB has authorized the line's abandomnent.
~

30

Burgoyne notes that Thompson involved a dispute between 'two rail carriers, while this case

pits a rail carrier against a private property owner. That distinction is immaterial. Thompson rests
on the principle that "rail lines cannot be removed from the national rail system without
authorization from the [SIB] even if their underlying leases have expired." Pine/awn Cemetery,
SIB Finance Docket No. 35468, 2015 WL 1813674, at *7 (Apr. 21, 2015). As the SIB explained
in Pinelawn Cemete1y, the same principle that limits "the authority of a public body to regulate a
rail carrier under state and local law" applies to "the rights of a private party to remove a rail carrier
under contract law." Jd. at *9. "Just as state regulatory laws must yield to federal law under [the
ICCTA]," the Board explained, "the expiration of a contract between a railroad and a landowner
does not, by itself, amount to an abandonment" and cmmot be used "to evict the [railroad] from
the property." Jd. Likewise, the termination of a rail carrier's easement under state contract or
property law cannot be used to oust the carrier from its right-of-way unless and until the SIB has
authorized an abandonment of the affected rail line.
~

31

Burgoyne next asserts that enforcement of a rail carrier's voluntary agreement can never

be deemed to umeasonably interfere with rail transportation. But the cases Burgoyne cites do not
support that blanket proposition. While a rail carrier's voluntmy agreements should generally "be
seen as reflecting the carrier's own determination and admission that the agreements would not
unreasonably interfere with interstate commerce," that presumption does not mean "that a
voluntary agreement could never constitute an 'unreasonable interference'

- 15 -

with rail

No. 1-19-0098

transportation." (Internal quotation marks omitted.) PCS Phosphate Co., 559 F.3d at 221. Thus,
-··-

when deciding whether the enforcement of a voluntaty agreement would unreasonably interfere
with rail transportation, a court must consider the details of the agreement at issue and conduct "a
factual assessment of the effect of providing the claimed remedy." Id.
~

32

In PCS Phosphate Co., the couri considered a dispute between a rail carrier and a mine

operator over a covenant in the deed conveying an easement to the rail carrier that required the

•

carrier to relocate its rail line to another p01iion of the mine operator's property if the mine operator
deemed the relocation necessary for mine operations. Jd. at 215. In rejecting the rail carrier's
contention that enforcing the covenat1t would unreasonably interfere with rail transportation, the
comi explained that the carrier's agreement to the covenant's terms "reflect[ed] a market
calculation that the benefits of operating the rail line for many years would be WOiih the cost of
paying to relocate the line in the future." I d. at 221. In light of that cost-benefit analysis, the couri
concluded that any interference with rail transp01iation caused by the relocation could not be
deemed unreasonable. ld. For that reason, enforcement of the agreement was not impliedly
preempted by the ICCTA. Jd. at 222.
~

33

The Board reached a similar result in Township of Woodbridge, 5 S.T.B. 336, 2000 VlL

1771044 (Nov. 28, 2000). At issue there was an agreement between a rail catTier and a local
government in which the carrier agreed "to curtail the idling of locomotives and the switching of
rail cars" during overnight hours to address noise complaints from local residents. !d. at *1. When
the local government sought to enforce the agreement, the rail catTier argued that the action was
preempted by the ICCTA. !d. at *2. In rejecting that contention, the Board explained that the
canier's "volU11tat·y agreements must be seen as reflecting the carrier's own determination and

- 16-

No. 1-19-0098

admission that the agreements would not unreasonably interfere with interstate commerce." Jd. at
*3. Because the carrier "ha[d) not shown that enforcement of its commitments would unreasonably
interfere with the railroad's operations," the local government's action was not preempted by the
ICCTA.Jd.
~

34

The agreement that Burgoyne seeks to enforce here is fundamentally distinguishable from

the agreements in PCS Phosphate Co. and Township of Woodbridge. While a rail carrier may
voluntarily commit to relocate a line or reduce noise produced by its operations without necessarily
causing an umeasonable interference with rail transportation, it "cannot voluntarily contract away
[the STB's] jurisdiction over the abandonment of [its] [l]ine." Salt Lake City Corp., STB Docket
No. AB-33 (Sub-No. 183), 2002 WL 368014, at *5 (Mar. 8, 2002). As discussed above, granting
Burgoyne's requested relief would prevent CTR from conducting service over its rail line and
would result in an unauthorized abandonment of the line. Thus, even though Burgoyne's claims
arise from a voluntary agreement, we conclude that its claims are preempted by the ICCTA because
its requested relief would unreasonably interfere with rail transpotiation. 3
~

35

We are similarly unpersuaded by Burgoyne's reliance on decisions concerning a state

court's authority to adjudicate property claims with respect to "the size and extent of a railroad
easement." Allegheny Valley R.R. Co., STB Finance Docket No. 35388, 2011 WL 1546589, at *3
(Apr. 25, 2011). The dispute here concerns the existence of an easement rather than its size and
and that distinction is critical. In Allegheny

extent,

3

Valley,

the pruties' "primary

Burgoyne contends that a different result is warranted here because the corrective deed was issued
in the course of railroad reorganization proceedings overseen by a federal bankruptcy cowt. Burgoyne
assetts that the ICC was a party to the bankruptcy proceeding and was "fully aware" of the tenns of the
corrective deed. Even if true, we see nothing in the terms of the deed or the circumstances surrounding its
execution that suggest that either the bankruptcy coutt or the ICC preemptively authorized a future
abandonment of the rail line.

- 17-

No. 1-19-0098

dispute*** involve[d] the size, location, and nature of property rights for the [rail carrier's] rightof-way," issues that "involve[d] the application of state property law and properly [were} before
the state court." !d. at *4. The Board stressed, however, that the patiies agreed "that a railroad
right-of-way exist[ed]" and that the rail carrier "[had] the right to conduct rail operations within
the*** right-of-way." !d. Here, in contrast, Burgoyne disputes the continued existence ofCTR's
easement and seeks an order that would prevent CTR from conducting rail operations over the

'
right-of-way. Unlike the types of property claims that may proceed in state court, Burgoyne's
claims, if successful, would prevent or unreasonably interfere with rail transportation and are thus
preempted by the ICCTA See Jie Ao and Xin Zhou, STB Finance Docket No. 35539, 2012 WL
2047726, at *6 (June 6, 2012) (finding state-law adverse possession claim preempted because it
sought "to claim title to a strip of rail-banked [right-of-way] that is within the national rail network
system and has not been abandoned").
~

36

We also conclude that Burgoyne's claims are preempted by the Trails Act. After Alloy

filed a petition for the adverse abandonment of CTR's rail line, the City submitted a request for
interim trail use as an alternative to abandonment. Under the Trails Act and the STB 's rules, the
Board issued a CITU that allowed the City and CTR to negotiate an agreement for interim trail
use. See 16 U.S.C. § 1247(d); 49 C.F.R. § 1152.29. If the pariies had failed to reach an agreement,
CTR would have been authorized to abandon the line (Preseau/t, 494 U.S. at 7) and Burgoyne
would have been able to enforce the terms of the corrective deed terminating CTR's easement due
to its nonuse for railroad purposes. Because the pariies were able to reach an agreement, however,
the CITU blocked the line from being abandoned and authorized CTR to transfer the right-of-way
to the City for interim trail use, "subject to restoration or reconstruction for railroad purposes."

- 18-

No. 1-19-0098

16 U.S.C. § 1247(d). The Trails Act provides that "such interim use shall not be treated, for
purposes of any law or rule of law, as an abandomnent of the use of such rights-of-way for railroad
purposes." I d. The Trails Act thus "prevent[s) (Burgoyne's) prope1ty interests [in the right-of-way)
from reverting under state law" (Preseault, 494 U.S. at 8) and preempts its claims seeking to
enforce the easement's termination.
~

37

Burgoyne attempts to avoid the preemptive effect of the Trails Act on several grounds, but

none is availing. First, Burgoyne relies on Marvin M Brandt Revocable Trust v. United States,

572 U.S. 93 (2014), but that case simply applied "basic common law principles" to a dispute over
reversionary interests in a railroad easement that terminated due to nonuse. !d. at 106 4 The
decision did not consider any issue under the Trails Act, nor does anything in the opinion suggest
that the easement had been transferred for interim trail use. The decision thus has no bearing on
the preemption question we address here.
~

38

Next, Burgoyne argues that the Trails Act does not prevent enforcement of its reversionary

interest because that interest arises from the terms of a corrective deed rather than state property
law. But the Trails Act states that interim trail use "shall not be treated, for purposes of any law or
rule of law, as an abandonment of the use of such rights-of-way for railroad purposes." (Emphasis

added.) 16 U.S.C. § 1247(d). That language is broad enough to encompass any reversionary
interest triggered by nonuse of an easement for railroad purposes, whether the interest arises from

4

The Comt also explained that "it does not make sense under common law prope1ty principles to
speak of the grantor of an easement having retained a 'reversionary interest"' A1arvin M Brandt Revocable
Trust, 572 U.S. at I 05 n.4. Instead, the grantor of an easement retains its ownership interest in the property
subject to an easement, and that interest returns to its unencumbered state when the easement terminates.
See id. at 105. "Under either characterization the result upon termination of the easement is the same."
Preseault v. United States, !00 FJd 1525, !534 (Fed. Cir. 1996). Because rails-to-trails cases generally
employ the "reversiona1y interest" terminology, see, e.g., Preseault, 494 U.S. at 8, we do so here as well.
- 19-

No. 1-19-0098

prope1ty law or

a contractual arrangement. In Preseault, the Court held that the Trails Act

"prevent[s] property interests from reverting under stat(! law." 494 U.S. at 8. We see no reason to
think that the Com1 meant to distinguish between different sources of state law. \Vhether
Burgoyne's reversionary interest arises under state property law or state contract law does not
affect the preemption analysis.
Burgoyne also contends that the Trails Act cannot prevent enforcement of its reversionary
.

'

interest in the right-of-way because CTR's easement terminated before the STB authorized interim
trail use. But the same was true in- Preseault, where the rail carrier ceased operations and removed
its tracks from the right-of-way well in advance of any request for interim trail use. Preseault, 494
U.S. at 9; see Trustees of the Diocese of Vermont v. State, 496 A.2d 151, 152 (Vt. 1985) (prior
state com1 decision in the case). Indeed, one of the issues in the landowners' subsequent suit
seeking compensation for an alleged taking was whether the "easements [had] tenninated prior to
the alleged taking so that the property owners at that time held fee simples unencumbered by the
easements." Preseault v. United States, 100 F.3d 1525, 1533 (Fed. Cir. 1996). The resolution of
that question was relevant in determining whether any state law property rights were taken from
the landovmers as a result of the right-of-way's conversion to interim trail use (see id at 1544-45),
but the timing of the conversion did not affect the validity of the CITU and was immaterial to the
preemption question addressed by the Supreme Com1.
~

40

Finally, Burgoyne directs our attention to Monroe County Comm 'n v. A.A. Nettles, Sr.

Properties Ltd, 288 So. 3d 452 (Ala. 20 19). There, under circumstances similar to those presented
here, the Alabama Supreme Cout1 held that a landowner's state law action to quiet title to a former
railroad right-of-way that had been converted to interim trail use was not preempted by federal law

-20-

No. 1-19-0098

because the state law principles governing limited-use easements did not "attempt[] to regulate
rail transportation [or] limit the use of rail property to deter interstate commerce." I d. at 457. The
court thus approved the state trial court's application of "state-law principles to conclude that the
right-of-way had been extinguished by operation of law [when it ceased to be used for railroad
purposes], causing title to the right-of-way to revert" to the abutting landowner. Jd. at 459. The
court did not explain how the application of state law in this context was consistent with the Trails
Act's admonition that interim trail use "shall not be treated, for purposes of any law or rule of law,
as an abandonment of the use of such rights-of-way for railroad purposes." 16 U.S.C. § 1247(d).
Nor did the court discuss Preseault's holding that the Trails Act "prevent[s] property interests from
reverting under state law" when a railroad right-of-way is converted to interim trail use. 494 U.S.
at 8. We are, of course, not bound by the decision of a sister state court. See Blumenthal v. Brewer,
2016 IL 118781, ~ 82. Respectfully, we are unpersuaded by the decision in Nettles and thus decline
to follow it. Rather, as discussed above, we conclude that enforcement of any reversionary interest
Burgoyne may hold in the right-of-way under state contract or prope1ty law is preempted by the
Trails Act.
~

41

In closing, we note that this result does not leave Burgoyne without a remedy. As the circuit

court recognized, to the extent that application of the Trails Act effected a taking of its reversionmy
interest in the right-of-way, Burgoyne may seek compensation for the taking in the United States
Court of Federal Claims under the Tucker Act (28 U.S.C. § 1491(a)(l)). See Preseault, 494 U.S.
at 11-17. Contrary to Burgoyne's suggestion, recognizing the Trails Act's preemptive effect will
not leave the nature and scope of its property rights unresolved. "Although [the Trails Act] may
pre-empt the operation and effect of certain state laws [governing reversionmy interests]," it does

- 21 -

No. 1-19-0098

"not ·displace state law as the traditional source of the real property interests" that are affected.
Preseau/t, 494 U.S. at 22 (O'Connor, J., concurring, joined by Scalia and Kermedy, JJ.). Thus,
when considering any takings claim that Burgoyne may bring, the federal court of claims will
consider "the nature of the state-created property interest that [Burgoyne] would have enjoyed
absent" application of the Trails Act and "the extent that [application of the Trails Act] burdened
that interest." !d. at 24. As in all rails-to-trails takings cases, moreover, the court will "analyze the

'
properiy rights of the parties*** w1der the relevant state law." Rogers v. United States, 814 F.3d
1299, 1305 (Fed. Cir. 2015).
~ 42

III. CONCLUSION

~

43

For the foregoing reasons, we affirm the judgment ofthe circuit court.

~

44

Affirmed.

-22-

No. 1-19-0098

No. 1-19-0098

Cite as:

Burgoyne, LLC v. Chicago Terminal R.R. Co., 2020 IL App
(1st) 190098

Decision Under Review:

Appeal from the Circuit Court of Cook County, No. 17-CH-6199;
the Han. Pamela McLean Meyerson, Judge, presiding.

Attorneys
for
Appellant:

Georges: Bellas and Misty J. Cygan, of Bellas & Wachowski, of
Park Ridge, for appellant.

Attorneys
for
Appellee:

Mark A. Flessner, Corporation Counsel, of Chicago (Benna Ruth
Solomon, Myriam Zreczny Kasper, and Elizabeth Mary Tisher,
Assistant Corporation Counsel, of counsel), for intervenorappellee.
No brief filed for other appellees.

- 23 -

APPENDIX C

Burgoyne, LLC

v. Chicago Terminal Railroad, et al.
December 18, 2018
.L'

.L .L.I .L:.J .L

j

IN THE CIRCUIT COURT OF COOK COUNTY, ILLit<flli:~ 2019 ~
COUNTY DEPARTMENT, LAW DIVIS ONCLERKogFR~:~~~~~~~ JOURT
OF COOK COUNTY, !,L
BURGOYNE, LLC, an Illinois
LIMITED LIABILITY COMPANY,
Plaintiff,
vs.

)
)
)
)
)

ORIGINAL

) No. 17 CH 06199

CHICAGO TERMINAL RAILROAD,
et al.,
Defendants.

)
)
)
)
)

RECORD OF PROCEEDINGS held before the
HONORABLE PAMELA MCLEAN MYERSON, Judge of said
Court, taken in the above-entitled cause, before
Donna Wadlington Shavers, a Certified Shorthand
Reporter within the State of Illinois, at the
Richard J. Daley Center, Room 2305, Chicago,
Illinois, commencing on the 18th day of
December, 2018, at approximately the hour of
2:00p.m.

DCM Court Reporting, Inc.
(312) 704-4525
R 123

A-325

Burgoyne, LLC

v. Chicago Terminal Railroad, et al.
December 18, 2018
2

1

APPEARANCES:

2

3
4
5

6

BELLAS & WACHOWSKI
BY:
GEORGE ''GEO'' BELLAS, ESQ.
15 N. Northwest Highway
Park Ridge, Illinois
60068
(847) 823-9030 x219
george@bellas-wachowski.com
Appeared on behalf of the Plaintiff.

7

8
9

10
11

12
13

14
15
16
17

18

CITY OF CHICAGO - DEPARTMENT OF LAW
AVIATION, ENVIRONMENTAL, REGULATORY &
CONTRACTS DIVISION
BY:
JARED POLICICCHIO, ESQ. and
SARAH WILBANKS, ESQ.
30 North LaSalle Street, Suite 1400
Chicago, Illinois 60602
(312) 744-1438
(312) 744-9010
jared.policicchio@cityofchicago.org
sarah.wilbanks@cityofchicago.org
Appeared on behalf of the Defendant,
Chicago Terminal Railroad.
LAW OFFICES OF DANIEL K. MARKO
DANIEL K. MARKO, ESQ.
4448 West Oakton
Skokie, Illinois 60076-3259
(312) 933-6348
dan@markolawfirm.com
Appeared on behalf of Iowa Pacific
Holdings.

19
20
21
22
23
24

DCM Court Reporting, Inc.
(312)

704-4525

R 124

A-326

Burgoyne, LLC

v. Chicago Terminal Railroad, et al.
December 18, 2018
3

P R 0 C E E D I N G S

1

2

THE COURT:

3

4

Good afternoon.
THE CLERK:

5

6

MR. BELLAS:

8

Honor.

9

Plaintiffs.

10

Honor.

George Bellas on behalf of the
Good afternoon, your

Jared Policicchio on behalf of the City.
MS. WILBANKS:

Sarah Wilbanks on

behalf of the City.

14
15

Good afternoon, your

MR. POLICICCHIO:

12
13

Burgoyne versus Chicago

Terminal Railroad.

7

11

Good morning.

Daniel Marko on behalf of

MR. MARKO:
Iowa Pacific Holdings.

16

THE COURT:

All right.

We are here

17

this afternoon for status on ruling on two 2-619

18

motions to dismiss by Defendant, Chicago

19

Terminal Railroad and the Intervenor, City of

20

Chicago.

21

And as you know, I heard oral

22

arguments on October 22nd.

I have since

23

reviewed the transcript, and the briefs, and the

24

cases cited by both sides, and the Appellate

DCM Court Reporting,
(312) 704-4525

Inc.

R 125

A-327

Burgoyne, LLC

v. Chicago Terminal Railroad, et al.
December 18, 2018

4

1

Court's decision on the earlier motion to

2

strike, and I am prepared to give you an oral

3

ruling.
So to very briefly recap, I

4

5

know you all know the facts here, but just for

6

the record, this case is about rights under an

7

easement for railroad tracks.

8
9

In its Complaint the
Plaintiff, Bourgoyne LLC, seeks a finding that

10

it owns certain property pursuant to a

11

corrective deed unburdened by any easement or

12

other property rights.

13

specific performance and damages.

14

its argument is that we have contract rights and

15

under the corrective deed, which was approved by

16

Bankruptcy Court years ago, the Defendant has an

17

easement but Defendant's easement is to

18

''automatically cease and determine'' when the

19

Defendant stopped using the track's "inactive

20

operation of the railroad'' for 12 consecutive

21

months.

22

It seeks an injunction,
The crux of

Last fall I stayed this case

23

because an abandonment proceeding had been filed

24

before the Surface Transportation Board, which I

DCM Court Reporting, Inc.
(312) 704-4525
R 126

A-328

Burgoyne, LLC

v. Chicago Terminal Railroad, et al.
December 18, 2018
5

1

will call STB, related to these tracks.

2

time the Defendant argued and I agreed that

3

Federal law pre-empted this Court from deciding

4

the issue of abandonment of the tracks.

5

At that

Plaintiff appealed my stay

6

order and the Appellate Court affirmed that

7

decision on March 23rd of this year.

8

its decision about a month later.

9

STB issued

And now both Defendant and the

10

City have filed motions to dismiss arguing that

11

essentially because of the STB's decision

12

abandonment is now off the table, and they've

13

advised the Court that the City has entered into

14

an agreement approved by the STB for an interim

15

trail use of the railroad right-of-way.

16

argued that the Federal Trails Act provides that

17

as long as the trail use is in effect State

18

property rights are suspended and Burgoyne's

19

only remedy is to bring a claim before the U.S.

20

Court of Claims.

21

They

Bourgoyne argues that

22

Defendant had no right to enter into that trails

23

use agreement with the City.

24

rights to bargain away to the City because its

It had no property

DCM Court Reporting, Inc.
(312) 704-4525
R 127

A-329

Burgoyne, LLC

v. Chicago Terminal Railroad, et al.
December 18, 2018
6

1

easement had already expired by its own terms

2

under the contract, which was the corrective

3

deed.
The key provision of the

4

5

Trails Act

16 U.S. CA Section 1247(d), which

6

deals with interim use of railroad

7

rights-of-way.

8

called railbanking.

9

furtherance of the national policy to preserve

lS

It provides for what the case

lS

Essentially, ''in

10

established railroad rights-of-way for future

11

reactivation'' if a state or municipality is

12

prepared to step in and manage the rail

13

property, that section provides that the STB

14

shall impose conditions for interim use and

15

shall not permit abandonment or discontinuance.
That's what the STB approved

16
17

for the City on April 30, 2018, a certificate of

18

interim trail use, which I will call a CITU.

19

So how does that impact this
I found the Presault line of cases

20

case.

21

that's P-r-e-s-a-u-1-t -- which were in the

22

Federal Circuit Court of Appeals and the U.S.

23

Supreme Court to be persuasive.

24

similar facts.

They had

They held that even though an

DCM Court Reporting,
(312) 704-4525

Inc.

R 128

A-330

Burgoyne, LLC

v. Chicago Terminal Railroad, et al.
December 18, 2018
7

1

easement for rail tracks would otherwise have

2

expired under State law, if a CITU is in place,

3

the railroad retains the right to use that

4

property as railroad corridor unless and until

5

the STB issues a decision authorizing

6

abandonment.
The cases cited by Plaintiff

7

8

did not involve the Trails Act, so I did not

9

find them as persuasive.

I find that the CITU

10

issued in this case precludes the Plaintiff from

11

arguing that the easement terminated under State

12

contract law, and I'm going to grant the motion

13

to dismiss without prejudice to Plaintiff's

14

ability to bring a claim in the U.S. Court of

15

Claims.

16

So that is the final order

17

disposing of this case.

18

written order to say today is, for the reasons

19

stated on the record, I'm granting the motions

20

to dismiss and please include in the order that

21

this is a final order disposing of all matters

22

in this case.

23
24

What I would like the

And I would like -- I would
like the Defendant movant to file a copy of

lI
DCM Court Reporting, Inc.
(312) 704-4525
R 129

A-331

Burgoyne, LLC

v. Chicago Terminal Railroad, et al.
December 18, 2018
8

1

the -- of the transcript with the Court within,

2

say, 14 days.

MR. POLICICCHIO:

3

4

Okay?

Honor.

5

THE COURT:

6

MR. BELLAS:

7
8

9
10
11

12

Thank you, your

All right.
So that disposes of the

cross-claims for damages as well?
THE COURT:

Yes, it does.

All claims

need to be brought before the U.S. Court of
Claims; okay?
Thank you.
MS. WILBANKS:

Thank you, Judge.

13
14
15

(WHICH WERE ALL THE PROCEEDINGS HAD

16

IN THE ABOVE-ENTITLED MATTER.)

17
18
19
20
21

22
23
24

DCM Court Reporting,
(312) 704-4525

Inc.

R 130

A-332

APPENDIX D

The 5th Amendment to the United States Constitution states:
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the land or naval forces,
or in the Militia, when in actual service in time of War or public danger; nor shall any person
be subject for the same offence to be twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor shall private property be taken for
public use, without just compensation.

16 U.S.C. § 1247 provides in part:
§ 1247. State and local area recreation and historic trails
*

*

*

(d) Interim use of railroad rights-of-way
The Secretary of Transportation, the Chairman of the Surface Transportation Board, and the
Secretary of the Interior, in administering the Railroad Revitalization and Regulatory
Reform Act of 1976 [45 U.S.C. 801 et seq.], shall encourage State and local agencies and
private interests to establish appropriate trails using the provisions of such programs.
Consistent with the purposes of that Act, and in furtherance of the national policy to
preserve established railroad rights-of-way for future reactivation of rail service, to protect
rail transportation corridors, and to encourage energy efficient transportation use, in the
case of interim use of any established railroad rights-of-way pursuant to donation, transfer,
lease, sale, or otherwise in a manner consistent with this chapter, if such interim use is
subject to restoration or reconstruction for railroad purposes, such interim use shall not be
treated, for purposes of any law or rule of law, as an abandonment of the use of such rightsof-way for railroad purposes. If a State, political subdivision, or qualified private
organization is prepared to assume full responsibility for management of such rights-ofway and for any legal liability arising out of such transfer or use, and for the payment of any
and all taxes that may be levied or assessed against such rights-of-way, then the Board shall
impose such terms and conditions as a requirement of any transfer or conveyance for
interim use in a manner consistent with this chapter, and shall not permit abandonment or
discontinuance inconsistent or disruptive of such use.
***

49 U.S.C. § 10501 provides in part:
§ 10501. General jurisdiction
***

(b) The jurisdiction of the Board over—
(1) transportation by rail carriers, and the remedies provided in this part with respect

to rates, classifications, rules (including car service, inter- change, and other
operating rules), practices, routes, services, and facilities of such carriers; and

(2) the construction, acquisition, operation, abandonment, or discontinuance of spur,

industrial, team, switching, or side tracks, or facilities, even if the tracks are located,
or intended to be located, entirely in one State, is exclusive. Except as otherwise
provided in this part, the remedies provided under this part with respect to
regulation of rail transportation are exclusive and preempt the remedies provided
under Federal or State law.
*
*
*

APPENDIX E

SERVICE DATE- LATE RELEASE APRIL 30,2018

46322
EB

SURFACE TRANSPORTATION BOARD
DECISION AND CERTIFICATE OF INTERIM TRAIL USE OR ABANDONMENT
Docket No. AB I258
ALLOY PROPERTY COMPANY, LLC-ADVERSE ABANDONMENT-CHICAGO
TERMINAL RAILROAD IN CHICAGO, ILL.
Digest: 1 The Board is granting, subject to trail use, environmental, and labor
protective conditions, the application by Alloy Property Company, LLC, for
adverse abandonment.
Decided: April30, 2018
On October 12, 2017, Alloy Property Company, LLC (Alloy) filed an application under
49 U .S.C. § I 0903, requesting that the Board authorize the third-party ("adverse") abandonment
of2.625 miles of rail line owned by the Chicago Terminal Railroad (CTM) in Chicago, Cook
County, Ill., originating at the western side of North Elston Avenue and proceeding east and
south to Goose Island to a terminus near the intersection ofNorth Branch Street and Halsted
Street (the Line) . Alloy states there is no need for rail service on the Line. CTM does not
oppose the application. Notice of the application was served and published in the Federal
Register on November 27, 2017 (82 Fed. Reg. 56, I 0 I).
BACKGROUND
On June I, 2017, Alloy filed a petition seeking a waiver of certain Board regulations and
exemptions from related statutory provisions in anticipation of its filing of an adverse
abandonment application. CTM filed a reply to Alloy's waiver petition on June 2I, 20I7,
opposing some of Alloy's requests for waivers and stating that it would oppose an application for
adverse abandonment. In a decis ion served August 16,2017, the Board granted in part Alloy' s
waiver petition. On September 18, 2017, CTM filed a motion to compel discovery from Alloy.
In a decision served October 25, 20 I 7, the Board referred the handling of all discovery matters to
an Administrative Law Judge (ALJ).
Alloy filed its adverse abandonment application on October 12, 2017, stating that there is
no need for rail service on the Line. Alloy contends that no rail shipments have originated or
terminated on the Line since 2015 and that any businesses on the Line that could have sought rail
1

The digest constitutes no part of the decision of the Board but has been prepared for the
convenience of the reader. It may not be cited to or relied upon as precedent. Policy Statement
on Plain Language Digests in Decisions, EP 696 (STB served Sept. 2, 201 0).

Docket No. AB 1258

service have ceased operations, relocated, or are using non-rail transportation options. Alloy
asserts that it is working with the City of Chicago (the City) to redevelop the property into a
mixed-used urban center.
On January 16, 2018, CTM filed a motion to withdraw its motion to compel and a reply
indicating it no longer opposes Alloy's application for adverse abandonment. The same day,
Alloy and CTM filed a joint motion to restaJt the procedural schedule. The ALJ granted CTM's
motion to withdraw on January 25, 2018. By decision served on January 31, 2018, the Board
restarted the procedural schedule.
The Board has received letters in suppmt of Alloy's application from the City, United
States Representative Mike Quigley, Alderman Walter Burnett, Jr., Alderman Bruce Hopkins,
and the Friends of Goose Island.
On February 14, 2018, the Cit

f

Li~~ex~c~e~t~fo¥.r~@~~~~~~~~~~~s~

Interim Trail use (CITU) over the
That same day, CTM filed a letter st~~ing that it is willing to negotiate for trail use wt
e City.
Alloy filed a reply on March I, 2018, indicating that it does not object to the issuance of a CITU
over the requested portion of the Line.
DISCUSSION AND CONCLUSIONS
As explained below, the Board finds that granting adverse abandonment here, subject to
certain conditions, is consistent with§ 10903. Accordingly, the Board grants Alloy's unopposed
application for adverse abandonment.
Legal Standard. Under 49 U.S.C. § 10903(d), the standard that applies to any application
for authority to abandon a line of railroad is whether the present or future public convenience and
necessity (PC&N) require or permit the proposed abandonment. In applying this standard in a
third-party or adverse abandonment context, the Board considers whether there is a present or
future public need for rail service over the line and whether that need is outweighed by other
interests. See N.Y. Cross Harbor R.R. v. STB, 374 F.3d 1177, 1180 (D.C. Cir. 2004); City of
Cherokee v. ICC, 727 F.2d 748, 751 (8th Cir. 1984). See also Seminole GulfRy.-Adverse
Aban.-in Lee Cty., Fla., AB 400 (Sub-No. 4) (STB served Nov. 18, 2004). As part of the
PC&N analysis, the Board must consider whether the proposed abandonment would have a
serious, adverse impact on rural and community development. 49 U.S.C. § 10903(d). The
environmental impacts of the proposed abandonment also must be considered, and, pursuant to
49 U.S.C. § I 0903(b )(2), affected rail employees must be adequately protected.
The Board has exclusive and plenary jurisdiction over rail abandonments to protect the
public from an unnecessary discontinuance, cessation, interruption, or obstruction of available
rail service. See Modern Handcraft. Inc.-Aban., 363 I.C.C. 969, 972 (1981 ). Accordingly, the
Board typically preserves and promotes continued rail service where a carrier has expressed a
desire to continue operations and has taken reasonable steps to acquire traffic. See Chelsea Prop.
Owners-Aban.-Portion ofConsol. Rail Corp.'s W. 30th St. Secondary Track in N.Y.C., N.Y.,
8 I.C.C. 2d 773, 779 (1992), affd sub nom. Canso!. Rail Corp. v. ICC, 29 F.3d 706 (D.C. Cir.
2

Docket No. AB 1258

1994). On the other hand, the Board does not allow its jurisdiction to be used as a bar to state
law remedies in the absence of an overriding federal interest. See Kan. City Pub. Serv. Freight
Oper.-Exemption-Aban. in Jackson Cty., Mo., 7 I.C.C. 2d 216 (1990). See also CSX Corp. &
CSX Transp., Inc.-Adverse Aban. Application-Can. Nat' I Ry. & Grand Trunk W. R.R., AB
31 (Sub-No. 38) (STB served Feb. I, 2002). If adverse abandonment is granted, the decision
removes the agency's jurisdiction, enabling the applicant to pursue other legal remedies against
the incumbent carrier, if necessary. See Consol. Rail Corp., 29 F.3d at 709; Modern Handcraft,
363 I.C.C. at 972.
PC&N Analysis. Applying the above principles to this case, the Board finds that the
present and future PC&N permit the proposed adverse abandonment. The record demonstrates
that there is no present or future need for common carrier rail service. Alloy states, and CTM
agrees, that no shipments have originated or terminated on the Line since 2015 and that there are
no reasonable prospects for developing future rail traffic over the Line. Further, Alloy contends
that the public interest favors granting its application because it is working to transform the
propetty "into a major mixed-use development that will benefit residents, businesses, and
visitors." (Alloy Appl. 2.) CTM does not contest this assertion.
As noted, the Board has received four letters of suppott favoring Alloy's application.
The City submitted a detailed letter with exhibits explaining that the Line is located within an
area known as the North Branch Industrial Corridor (the Corridor). According to the City, the
Chicago Plan Commission adopted a land use policy called the North Branch Framework Plan
(Framework Plan) in May 2017, which "embraces changes to land use policy within the Corridor
to attract innovation and technology-oriented businesses (as opposed to new heavy industrial
ones) with the goals of fostering new mixed-use neighborhoods and publicly accessible open
space." (The City Ltr. 2-3.) Congressman Quigley, Alderman Burnett, Alderman Hopkins, and
the Friends of Goose Island all, likewise, support Alloy's application for adverse abandonment.
(See generally Quigley Ltr.; Burnett Ltr.; Hopkins Ltr.; Friends of Goose Island Ltr.)
Given the record evidence that there is no present or future need for rail service over the
Line and the support of the Framework Plan from the City and public officials, the Board
determines that the present and future PC&N support the requested adverse abandonment.
Environmental Matters. The Board is required to consider the environmental impacts of
the proposed abandonment to meet its obligations under the National Environmental Policy Act,
42 U .S.C. § 4321, et ~· Alloy submitted a combined environmental and historic report with its
application and notified the appropriate federal, state, and local agencies of the opportunity to
submit information concerning the environmental impacts of the proposed abandonment. See
49 C.F.R. § II 05.11. The Board's Office of Environmental Analysis (OEA) examined the
environmental and historic report, verified its data, and analyzed the probable environmental
effects of the proposed action. OEA issued for public review and comment an Environmental
Assessment (EA) on November 13, 2017.
In the EA, OEA recommended that two conditions be placed on any decision granting
abandonment authority. First, in response to a comment in the historic report from the Illinois
State Historic Preservation Officer (SHPO), OEA recommended a condition requiring Alloy and
3

Docket No. AB 1258

CTM to retain interest in and take no steps to alter the historic integrity of all sites, buildings,
structures, and objects within the project right-of-way that are eligible for listing or listed in the
National Register until the Section I 06 process of the National Historic Preservation Act
(NHPA), 54 U.S.C. § 306108, has been completed. Second, OEA recommended a condition
requiring Alloy to consult with the National Geodetic Survey (NGS) and notify NGS at least 90
days prior to beginning salvage activities that will disturb or destroy any geodetic station
markers.
OEA received comments on the EA from Alloy, the Miami Tribe of Oklahoma, and the
U.S. Coast Guard (Coast Guard), and addresses those in its Final EA dated March 7, 2018. As a
result of these comments and its own analysis, OEA recommends modifying one condition and
adding three more conditions, as discussed below.
In its comment on the EA, Alloy contends that the Section I 06 condition under NHPA
should be limited to the swing bridge, as this is the only structure identified by the SHPO as
eligible for listing on the National Register and as being adversely affected by the proposed
abandonment, and that the condition should apply only to Alloy, not Alloy and CTM. OEA
agrees that the Section I 06 condition should apply only to the swing bridge and recommends
modifying that condition accordingly. OEA does not, however, agree that the entire Section 106
condition should be imposed only on Alloy. As OEA notes, the portion of the condition
requiring both the third-party applicant and the railroad to keep the swing bridge intact until the
Section 106 process is complete ensures that the Board will fulfill its obligation under the
NHPA. Thus, OEA continues to recommend imposing that portion of the Section I06 condition
on both Alloy and CTM.
Alloy also suggests that the NGS consultation condition be removed. Alloy states that it
does not believe that any geodetic station markers exist along the Line because Alloy narrowed
the scope of the proposed abandonment from 2.875 miles to 2.625 miles. In response, OEA
notes that NGS originally identified three geodetic station markers, but that NGS later modified
that to two station markers, presumably after learning that Alloy had shortened the length of the
line proposed for abandonment. Therefore, because it is not clear whether any geodetic station
markers remain on the Line, OEA believes the NGS consultation condition is still warranted.
The Miami Tribe of Oklahoma submitted a letter dated December 4, 20 I 7, indicating that
it has no objection to the abandonment, but requesting immediate consultation if any human
remains or Native American cultural items falling under the Native American Graves Protection
and Repatriation Act or archeological evidence is discovered during any phase of the proposed
abandonment. OEA, accordingly, recommends that, in the event any unanticipated archeological
sites, human remains, funerary items, or associated artifacts are discovered during salvage
activities, Alloy will immediately cease all work and notify OEA, interested federally recognized
tribes, the SHPO, and the Miami Tribe of Oklahoma Tribal Historic Preservation Officer
(THPO), pursuant to 36 C.F.R. § 800.13(b).

4

Docket No. AB 1258

Guard indicated that the federal permit is transferable, with all the responsibilities and
requirements to comply with federal bridge statutes and regulations transferred to the new legal
owner. Accordingly, OEA recommends a condition that Alloy consult with the Coast Guard
regarding the permit for the bridge.
Upon its own review, OEA also recommends an additional condition requiring CTM to
cooperate as necessary to facilitate the successful and timely completion of the recommended
conditions. OEA notes that a third-party applicant does not typically have any right to access the
property until the adverse abandonment is granted and the line is no longer part of the national
rail network. OEA believes that such a condition will improve and expedite the process and
ensure compliance with the conditions that must be satisfied before salvage.
The Board adopts the analysis and recommendations in the Final EA. Based on OEA 's
recommendations, the Board concludes that the proposed adverse abandonment, if implemented
as conditioned, will not significantly affect either the quality of the human environment or the
conservation of energy resources.
Labor Protection. In approving this application, the Board must ensure that affected
railroad employees will be adequately protected. 49 U.S.C. § 10903(b)(2). The Board has found
that the conditions imposed in Oregon Short Line Railroad-Abandonment Portion Goshen
Branch Between Firth & Ammon, in Bingham & Bonneville Counties, Idaho, 360 !.C. C. 91
(1979), satisfy the statutory requirements and will impose those employee protective conditions
here.
Trail Use. On February 14, 2018, the City submitted a request for the issuance of a CITU
over most of the Line. The City is not seeking a CITU over the portion of the Line north of West
Cortland Street. In a letter filed February 14, 2018, CTM states that it is willing to negotiate for
'trail use with the City. In a reply filed March 1, 2018, Alloy indicates that it does not object to
the issuance of a CITU over the requested pmtion of the Line. 2

2

On March 5, 2018, Burgoyne, LLC (Burgoyne), filed a Jetter stating that the portion of
the Line covered by the CITU includes a disputed easement over Burggym:.'sland Burgoyne
indicates that it is engaged in state comtlitigation with CTM regarding the contract for the
easement. Burgoyne argues that the easement terminated per the terms of the contract and that
CTM no longer has any rights to the easement. Burgoyne asks that the Board not include the
easement portion as part of the CITU. On March 23,2018, the City and CTM-in separate
filings-requested leave to file replies to Burgoyne's letter.
The Board will deny Burgoyne's request. The propet1y at issue in Burgoyne's state
litigation is part of the Line bein authorized for abandonment. Under the National Trails
· ys
c a
e oar s implementing rules, if a prospective trail user (here, the City)
requests a trail condition and the carrier indicates a willingness to negotiate a trail agreement, the
Board has a limited ministerial role and must issue the CITU. See Goos v. ICC, 911 F.2d 1283
(8th Cir. 1990); see also Caddo Valley R.R.-Aban. Exemption-In Clark, Pike, & Montgomery
Ctys., Ark., AB 1076X (STB served Feb. 27, 2013); Rutherford R.R. Devel. Corp.-Aban.
(continued ... )

5

Docket No. AB 1258

The Board's role under the National Trails System Act, 16 U.S.C. §§ 1241-51, is limited
and largely ministerial. Citizens Against Rails-to-Trails v. STB, 267 F.3d 1144, 1151-52 (D.C.
Cir. 2001); Goos v. ICC, 911 F.2d 1283, 1295 (8th Cir. 1990). Here, the City has satisfied the
requirements for interim trail use/rail banking by providing a statement of willingness to assume
financial responsibility for the Line and acknowledging that the use of the right-of-way for trail
purposes is subject to possible future reconstruction and reactivation of the right-of-way for rail
service. Moreover, CTM has stated that it agrees to interim trail use negotiations. (CTM Ltr.,
Feb. 14, 2018.) Alloy has also consented. (Alloy Reply 3, Mar. I, 2018.) Because the City's
request complies with the requirements of 49 C.F .R. § 1152.29 and CTM is willing to negotiate
for interim trail use, a CITU will be issued. See Chelsea Prop. Owners-Aban.-Portion of the
Consol. Rail Corp.'s W. 30th St. Secondary Track in N.Y.C., N.Y., AB 167 (Sub-No. l 094A),
slip op. at 8 (STB served June 13, 2005). The parties may negotiate an interim trail use
agreement for the Line during the 180-day period prescribed below. If an interim trail use
agreement is reached, the parties shall jointly notify the Board within I 0 days that an agreement
has been reached. 49 C.F.R. § ll52.29(c)(2), (h). Nat' I Trails Sys. Act & R.R. Rights-of-Way,
EP 702 (STB served Apr. 30, 20 12). If no agreement is reached within 180 days, the Line may
be fully abandoned, subject to·the other conditions described below. 49 C.F.R. § 1152.29(c).
Use of the right-of-way for trail purposes is subject to possible future reconstruction and
reactivation of the right-of-way for rail service.
It is ordered:

l. Alloy's adverse abandonment application is granted subject to the employee
protective conditions set forth in Oregon Short Line Railroad-Abandonment Portion Goshen
Branch Between Firth & Ammon, in Bingham & Bonneville Counties, Idaho, 360 l.C.C. 91
(1979), and subject to the conditions that:
(a) Alloy and CTM shall retain their interest in and take no steps to alter the historic
integrity of the swing bridge located on the rail line until the Section 106 process of the NHPA,
54 U.S.C. § 306108, has been completed. Alloy shall report back to OEA regarding any
consultations with the SHPO, any other Section l 06 consulting parties, and the public. Alloy
may not file a consummation notice or initiate any salvage activities for the swing bridge until
the Section l 06 process has been completed and the Board has removed this condition.
(b) Alloy shall consult with the NGS and notify NGS at least 90 days prior to beginning
salvage activities that will disturb or destroy any geodetic station markers.
(c) In the event that any unanticipated archaeological sites, human remains, funerary
items, or associated artifacts are discovered during salvage activities, Alloy shall immediately
cease all work and notify the OEA, interested federally recognized tribes, the SHPO, and the
THPO pursuant to 36 C.F.R. § 800.!3(b). OEA shall then consult with the SHPO (or THPO),

( ... continued)
Exemption-In Rutherford Cty., N.C., AB 567 (Sub-No. IX) (STB served Aug. 25, 2000). The
issuance of the CITU here is not intended to address the merits of any pending Iitigation.

6

Docket No. AB 1258

interested federally recognized tribes, Alloy, and other consulting parties, if any, to determine
whether appropriate mitigation measures are necessary.
(d) Prior to the commencement of any salvage activities, Alloy shall consult with the
Coast Guard regarding the perm it for the bridge.
(e) CTM shall cooperate as necessary to facilitate the successful and timely completion of
the above conditions.
2. The City's request for a CITU, under 16 U.S.C. § l247(d) and 49 C.F.R. § 1152.29,
for the Line is granted for the portion of the Line extending from the western side of North
Elston Avenue and proceeding east and south to Goose Island to a terminus near the intersection
of Chicago Avenue and Halsted Street. This does not include the small portion of the Line north
of West Cortland Street, which Alloy may abandon upon the effective date of this proceeding
provided that all other relevant conditions have been met.
3. If an interim trail use/rail banking agreement is reached, it must require the trail
sponsor to assume, for the term of the agreement, full responsibility for (i) managing the rightof-way; (ii) any legal liability arising out of the transfer or use of the right-of-way (unless the
sponsor is immune from liability, in which case it need only indemnify the railroad against any
potential liability); and (iii) the payment of any and all taxes that may be levied or assessed
against the right-of-way.
4. Interim trail use/rail banking is subject to possible future reconstruction and
reactivation of the right-of-way for rail service and to the trail sponsor's continuing to meet its
responsibilities described in ordering paragraph 3 above.
5. If an agreement for interim trail use/rail banking is reached by October 27, 2018, the
parties shall jointly notifY the Board within I 0 days that an agreement has been reached,
49 U.S.C. § 1152.29(d)(2) and (h), and interim trail use may be implemented. If no agreement is
reached by that time, the abandonment authority granted in this decision and certificate shall be
fully effective, provided the conditions imposed above are met. See 49 C.F.R. § 1152.29 (c)(!).
6. If interim trail use is implemented, and subsequently the trail sponsor intends to
terminate trail use on all or any portion of the rail line covered by the interim trail use agreement,
it must send the Board a copy of this decision and certificate and request that it be vacated on a
specified date.
7. Burgoyne's March 5, 2018 request that the Board not include the portion of the rail
line involving the disputed easement as part of the CITU is denied.
8. CTM's and the City's requests to file replies to Burgoyne's March 5, 2018 letter are
denied.
9. This decision is effective on May 30,2018. Any petition to stay or petition to reopen
must be filed as provided at 49 C.F.R. § ll52.25(e).
By the Board, Board Members Begeman and Miller.

7

